                                   Closeout for M98100037

On 00ctober 1999, a program manager1informed our office of potential intellectual theft
issues. She said that a PI^ had requested that another scientist not be provided his proposal
for review because of a past instance of "academic theft." The PI told us that this instance
was unrelated to NSF funding. He had described an experiment to the scientist who had
apparently claimed to have .tried unsuccessfully to repeat it. According to the PI the scientist
did not have sufficient'informationto successfully repeat the experiment.

The scientist had wanted the PI to work in his laboratory and the PI, upon hearing about the
failed repetition, decided not to join the scientist's laboratory. Subsequently, a proposal
submitted by a colleague of the PI'S upon which the PI was named as a contractor had
received all good reviews except for one "crazy" review. The comments in the latter review
were consistent with those the scientist had made to the PI.

We discussed the role of our office in addressing allegations such as these, which do not
constitute misconduct in science. The PI told us he was not concerned about academic theft
in connection with his NSF submission, but that he would alert our office to any such issues
in the future.

This inquiry is closed and no further action will be taken in this case.

Cc: Integrity, IG




                              9-4                                    Program in the Directorate for

                             at-       University.


                                     Page 1 of 1
